           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  AN INDIVIDUAL REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION
       IN LOS ANGELES, CALIFORNIA

      March 2010     A-15-09-19150




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 31, 2010                                                                          Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   An Individual Representative Payee for the Social Security Administration in Los
           Angeles, California (A-15-09-19150)


           OBJECTIVE

           Our objectives were to ensure the selected representative payee had effective
           safeguards over the receipt and disbursement of Social Security benefits. We also
           determined whether the representative payee used and accounted for these benefits in
           accordance with the Social Security Administration’s (SSA) policies and procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and disburse benefits for those
           beneficiaries’ payments. 1 A representative payee may be an individual or an
           organization. SSA selects representative payees for Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients
           when representative payments would serve the individuals’ interests. Representative
           payees are responsible for managing benefits in the beneficiary’s best interest. 2

           SSA categorized the representative payee under review as a “volume” payee who
           cared for 15 or more SSA beneficiaries. 3 This representative payee was a professional
           fiduciary in Los Angeles, California, providing conservatorship, trust management,
           probate administration, and other fiduciary services. During our audit period,
           March 1, 2008 to February 28, 2009, this representative payee served

           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
           3
               SSA, Program Operations Manual System (POMS), GN 00605.400.
Page 2 – Peter D. Spencer


approximately 162 SSA beneficiaries. The representative payee was the
court-appointed guardian for approximately 20 percent of the beneficiaries he served.
For the remaining beneficiaries in his care, he established a trust account for each
individual and served as the trustee. Most of the beneficiaries this representative payee
served were elderly and suffered from dementia.

SSA completed a review of this individual representative payee in February 2009. Its
review concluded the payee maintained accurate records and demonstrated concern
for the beneficiaries. It also noted the representative payee conducted his payee
activities in a manner consistent with an organizational payee. SSA recommended the
representative payee change his designation on SSA’s records from an individual to an
organizational payee.

RESULTS OF REVIEW
We found the individual representative payee generally had sufficient internal controls
for the receipt and disbursement of Social Security benefits. Particularly, the
representative payee had adequate segregation of duties, proper authorization for
transactions, and physical safeguards over assets and records. We also noted that the
representative payee provided a suitable level of care for the beneficiaries through the
selection of care facilities he placed them in. However, we identified an issue involving
the conservatorship and trustee fees collected by the representative payee that we
believe SSA should consider for further review.

The representative payee served as either a court-appointed conservator or the trustee
for the beneficiaries in his care. The representative payee collected a conservatorship
or trustee fee from most of the SSA beneficiaries he served. We selected a sample of
67 beneficiaries for review. During our review period, we determined the representative
payee received approximately $515,000 in SSA benefits for the beneficiaries in our
sample. In addition, we determined the representative payee collected conservatorship
or trustee fees, totaling approximately $225,000, for the beneficiaries in our sample
population.

To collect conservatorship fees, the representative payee had to file a petition with the
California Superior Court (Court) that included a declaration supporting the
conservatorship fees. The Court requires that the conservator regularly file the
accountings of the conservatorship. We noted that the representative payee’s
conservatorship fees ranged from several hundred to several thousand dollars.
However, for trust accounts, the trustee fees may not need to be approved by the Court
before the representative payee can collect a fee.

When an individual is appointed a legal guardian for a competent or incompetent
beneficiary or maintains a trust account on behalf of the beneficiary, part of the
beneficiary’s funds may be used for guardianship costs, court-ordered fees, and/or
reasonable compensation for the trustee. These fees may be collected provided the
guardianships and/or trusts appear to be in the beneficiary’s best interest, the
Page 3 – Peter D. Spencer


beneficiary’s personal needs are met first, and the beneficiary’s funds would not be
depleted by the collection of guardianship and/or trust fees. Because of the size and
complexity of these conservatorships and trust accounts, it is difficult to provide
guidance on what constitutes an excessive fee. 4

We noted the representative payee collected fees from 31 of the 67 individuals in our
sample. Most of these beneficiaries received other sources of income, such as
pensions, Department of Veterans Affairs (VA) benefits, and rental income. We noted
that for four of these beneficiaries, whose only source of income was their SSA
benefits, the conservatorship and trustee fees collected were over 50 percent of the
SSA benefit the representative payee received on their behalf. We considered these
fees to be excessive.

The representative payee stated that, for some of the beneficiaries who also received
Medi-Cal benefits, he claimed 100 percent of their SSA benefits as his fee. He further
stated that he did this to ensure the beneficiaries maintained their eligibility for Medi-Cal
benefits. However, if the beneficiaries’ needs exceeded their Medi-Cal benefit, the
representative payee stated he would refund a portion of his fees. Medi-Cal is
California’s public health insurance program that provides health care services for
children and adults with limited income and resources. Medi-Cal is financed equally by
the State and Federal governments.

Although some beneficiaries in our sample had additional sources of income, we
believe some of the fees the representative payee collected may have been excessive
given the beneficiaries’ individual circumstances. For example, the representative
payee was the conservator for a married couple receiving benefits. Both spouses in the
couple received Title II benefits, periodic dividend payments, and pension benefits. The
representative payee maintained separate bank accounts for each spouse and paid
their individual expenses. In November 2008, the representative payee petitioned the
Court to collect conservatorship fees from both beneficiaries. The Court awarded the
representative payee a conservatorship fee of approximately $23,000 from the
husband’s account and approximately $16,000 from the wife’s account.

Another beneficiary was residing in Mexico. This beneficiary was receiving Title II
benefits and workers’ compensation payments. In September 2008, the beneficiary’s
non-custodial spouse removed him from the care facility in California and moved him to
Mexico. The representative payee remained the conservator and continued to manage
the beneficiary’s account. We noted that most of the expenses paid from the trust
account were for storage unit rentals. In February 2009, the representative payee
petitioned the Court to collect his conservatorship fee. When the Court approved the
fees, the judge stated in the court documents that the conservatorship fees appeared
high for the level of services provided. The judge also stated he wanted to know why
the conservator had not informed the Court the beneficiary was residing in Mexico.



4
    SSA, POMS GN 00602.040; GN 00602.075.
Page 4 – Peter D. Spencer


However, the judge approved the conservatorship fees of $8,616.25 in April 2009. The
representative payee collected a partial payment of $4,316 from the beneficiary’s
account. This transaction left approximately $350 in the beneficiary’s account.

Because of the excessive fees the representative payee collected for our initial sample
of beneficiaries, we expanded the scope of our review to include the remaining
95 beneficiaries. We reviewed the accounting ledgers for excessive fees paid to the
representative payee. For our review period, the representative payee received SSA
benefits totaling $621,000 for these 95 beneficiaries. He collected conservatorship and
trustee fees of $226,000 from 58 of these beneficiaries. We noted for 18 beneficiaries,
the fee collected was over 50 percent of the SSA benefits the representative payee
received on the beneficiary’s behalf. For 11 beneficiaries, the SSA benefits were the
beneficiaries’ only source of income. We consider these fees to be excessive.

CONCLUSION AND RECOMMENDATION
The representative payee under review had adequate internal controls for the receipt
and disbursement of Social Security benefits. However, we found the representative
payee collected approximately $450,000 in fees during our 12-month review period
from 89 of the 162 beneficiaries he served. 5 By collecting large fees from the
beneficiaries, the representative payee was rapidly depleting the beneficiaries’ funds.
This action left fewer funds available for the beneficiaries’ foreseeable needs.

We recommend SSA:

Refer the 15 beneficiaries who had over 50 percent of their Social Security benefits
taken in fees, and these benefits were their only source of income, to the Regional
Chief Counsel for review.

AGENCY COMMENTS

SSA agreed to refer the 15 beneficiaries to the Office of General Counsel for review.
See Appendix D for the full text of SSA’s comments and Appendix E for the full text of
the representative payee’s comments.




                                                           Patrick P. O’Carroll, Jr.




5
    Of the 89 beneficiaries, 28 also had other sources of income.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
Court    California Superior Court
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
VA       Department of Veterans Affairs
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•     Determine the beneficiary’s current needs for day-to-day living and use his/her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain account records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

•     Return any payments to SSA to which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

•     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035 and 416.635
                                                                         Appendix C

Scope and Methodology
Our audit covered the period March 1, 2008 through February 28, 2009. To accomplish
our objectives, we:

•   Reviewed applicable Federal laws and regulations as well as the Social Security
    Administration’s (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior Office of the Inspector General and SSA work in the representative
    payee area.

•   Contacted SSA’s San Francisco Regional Office and the Pomona Valley, California,
    field office personnel to obtain background information and prior audits regarding
    the individual representative payee.

•   Compared and reconciled a list of SSA beneficiaries in the representative payee’s
    care from the payee to a list obtained from the representative payee system.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Selected a sample of 25 beneficiaries for whom the individual served as the
    representative payee and trustee. We also reviewed all the beneficiaries’ files
    where the representative payee served as the court-appointed conservator. In
    addition, we selected a sample of 11 beneficiaries who had passed away during our
    review period. For our three samples of beneficiaries, we performed the following
    tests.
     Compared benefit amounts paid according to SSA’s records to the benefit
        payments recorded in the payee’s accounting records.
     Reviewed the beneficiaries’ bank statements and the payee’s accounting records
      to determine whether benefit payments were properly deposited.
     Reviewed beneficiary files for supporting documentation of expenses and
      personal spending.

•   Conducted site visits at two care facilities that housed several beneficiaries in the
    representative payee’s care. We interviewed three beneficiaries to determine
    whether their basic needs were being met.

•   Reviewed the accounting ledgers for the remaining 95 beneficiaries in the
    representative payee’s care. We noted only the benefits recorded on the
    accounting ledgers and the conservatorship and trust fees paid to the representative
    payee.

                                             C-1
We performed our fieldwork in Los Angeles, California, between June and December
2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         C-2
                                                                                Appendix D

Agency Comments
March 22, 2010

SF REPLY -- 22009063 Draft Report "An Individual Representative Payee for the Social Security
Administration in Los Angeles, California" (A-15-09-19150)

Thank you for the opportunity to comment on the draft report “An Individual
Representative Payee for SSA in Los Angeles”. We are pleased OIG found the payee,
xxxxxxxxxxxxxxm has sufficient internal controls over the receipt and disbursement of
Social Security benefits. We are also pleased that OIG found he provides a suitable
level of care for the beneficiaries. Those are both good signs of a payee properly
performing his/her duties.
We have reviewed the recommendation from the audit and our comments are provided
below:

Refer the 15 beneficiaries who had over 50 percent of their Social Security benefits
taken in fees, and these benefits were their only source of income, to the Regional
Chief Counsel for review.

                 Response: We think this recommendation was made overlooking an
                 important provision in existing POMS instructions (see below). However,
                 we obtained the ledgers used in the audit and sent them to OGC for
                 review. We await their findings.
                 POMS GN 00602.040B (last paragraph) directs us to refer cases to the
                 Regional Chief Counsel (RCC) when the SSA/SSI benefits represent at
                 least 50 percent of the estate, and the costs associated with the
                 guardianship proceedings and/or attorney fees appear excessive in light
                 of the beneficiary’s income and resources. The ledgers OIG obtained,
                 which were the basis for the recommendation, do not establish SSA
                 benefits constitute 50 percent of the estate; rather they establish SSA
                 benefits constituted 50 percent of the income received by the beneficiaries
                 during the review period. As a case in point, from our conversation with
                 one of the OIG auditors, $40,000 was deposited into one beneficiary’s
                 account outside the review period, indicating the beneficiary’s assets
                 include more than SSA benefits.
Staff questions to our response may be directed to either Jeff Jesmok (510) 970-8246
or De Anna Barrios-Terry (510) 970-8213 of our Center for Programs Support.
Pete
Regional Commissioner
                                Appendix E

Representative Payee Comments
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director for Financial Audit Division
   Mark Meehan, Audit Manager

Acknowledgments
In addition to those named above:

   Judi Kammer, Senior Auditor
   Kelly Stankus, Auditor
   David Rodriguez, Attorney

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19150.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
